3fn tlje

Supreme Court of tfje fHntteb States?
IN RE ABDUL MOHAMMED, PETITIONER

On Petition for Writ of Mandamus to the United
States District Court for the Northern District of
Illinois and the Executive Committee of the
United States District Court for the Northern
District of Illinois
APPENDIX TO PETITION FOR WRIT OF
MANDAMUS
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
(630) 854-5345
aamohammed@hotmail.coir

July 16, 2020

41

Robbins Schwartz
1 iM West Monroe. 'Suite S00 -1; O*s®prM0603^St4.
EMILY P. BOTHFELD
ebothfeld@robbins-schwartz.com
FRANK B. GARRETT III
fgarrett@robbins-schwartz.com
June 3, 2020
VIA EMAIL
Ms. Annette Panter
United States District Court
Northern District of Illinois
219 S. Dearborn Street
Chicago, Illinois 60604
Annette panter@ilnd.uscourts.gov
Re:

Notice to the Executive Committee of the U.S. District Court for the
Northern District of Illinois

Dear Ms. Panter:
The undersigned represent Defendants Naperville Community Unit School District No. 203,
Dan Bridges, Nancy Voise, Erin Anderson, Susan Vivian, Andrea Szczepanski, Rachel Weiss,
Kristin Fitzgerald, Charles Cush, Donna Wandke, Kristine Gericke, Joseph Kozminski, Stacy
Colgan, Paul Leone and Janet Yang (“School District Defendants”) in the case of Abdul
Mohammed v. The State of Illinois, et a)., Case No. 3:20-cv-50133. Enclosed please find the
School District Defendants’ motion to the Executive Committee of the Northern District of
Illinois to have pro se plaintiff Abdul Mohammed declared a vexatious litigant and to have him
enjoined from further filings within this District. Please place this motion on the agenda
for the next Executive Committee meeting.
Should you have any questions regarding this correspondence, please do not hesitate to
contact the undersigned at your convenience.
Very truly yours,
Robbins Schwartz

By: Emily P. Bothfeld
EPB/pch
Enclosures

cc:

Frank B. Garrett III

Honorable John Robert Blakey (with enclosures)
Honorable Gary Feinerman (with enclosures)
Abdul Mohammed, Plaintiff (with enclosures)
Counsel of Record (with enclosures)
J#ori»ey$»t'Law1ip)i:31SJ32J760: fex:;;|12J3S:7K® ^^^ins$-scfcprt|y£ps

App 001

V

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
ABDUL MOHAMMED
>.

Plaintiff,
Case No. 3:20-cv-50133

v.
THE STATE OF ILLINOIS, et al.,

Judge John R. Blakey

Defendants

SCHOOL DISTRICT DEFENDANTS’ MOTION TO HAVE PLAINTIFF
DF.fT.ADFX> A VEXATIOUS LITIGANT AND ENJOINED FROM FURTHER FILINGS
Defendants NAPERVILLE COMMUNITY UNIT SCHOOL DISTRICT #203, DAN
BRIDGES, NANCY VOISE, ERIN ANDERSON, SUSAN VIVIAN, ANDREA SZCZEPANSKI,
RACHEL WEISS, KRISTIN FITZGERALD, DONNA WANDKE, CHARLES CUSH,
KRISTINE GERICKE, JOSEPH KOZMINSKI, STACY COLGAN, PAUL LEONG, and JANET
YANG (collectively “School District Defendants”), by and through their undersigned attorneys,
respectfully move the Executive Committee of this Honorable Court to declare pro se Plaintiff
Abdul Mohammed (“Plaintiff’) a vexatious litigant and enjoin him from further filings in this
District, pursuant to the All Writs Act and Rule 11 of the Federal Rules of Civil Procedure. In
support thereof, the School District Defendants state as follows:
1.

On April 16,2020, Plaintiff filed a 117-count Complaint against the School District

Defendants, along with more than twenty other individuals, organizations and governmental
agencies.
2.

Plaintiffs Complaint relates to the same subject matter as a previous Complaint

that Plaintiff filed against the School District Defendants in November 2018, which this Court

App 002

dismissed with prejudice on August 21, 2019, and a second Complaint that Plaintiff filed against
the School District Defendants on September 9, 2019, which the School District Defendants are
currently seeking to dismiss.
3.

Plaintiff has engaged a pattern of duplicative, vexatious, and harassing filings

against the School District Defendants and numerous other defendants in the above-captioned
matter, which merit Plaintiff being declared a vexatious litigant and being enjoined from further
filings in this District, pursuant to the All Writs Act and Rule 11 of the Federal Rules of Civil
Procedure.
4.

The School District Defendants’ Memorandum in Support of Their Motion to Have

Plaintiff Declared a Vexatious Litigant and Enjoined from Further Filings is submitted
contemporaneously herewith.
WHEREFORE, Defendants NAPERVILLE COMMUNITY UNIT SCHOOL DISTRICT
#203, DAN BRIDGES, NANCY VOISE, ERIN ANDERSON, SUSAN VIVIAN, ANDREA
SZCZEPANSKI, RACHEL WEISS, KRISTIN FITZGERALD, DONNA WANDKE, CHARLES
CUSH, KRISTINE GERICKE, JOSEPH KOZMINSKI, STACY COLGAN, PAUL LEONG, and
JANET YANG respectfully request that the Executive Committee of the Northern District of
Illinois declare pro se Plaintiff Abdul Mohammed a vexatious litigant and enjoin him from further
filings in this District.

2

App 003

Respectfully submitted,
NAPERVILLE
COMMUNITY
UNIT
SCHOOL DISTRICT 203, DAN BRIDGES,
NANCY VOISE, ERIN ANDERSON,
SUSAN
VIVIAN,
ANDREA
SZCZEPANSKI,
RACHEL
WEISS,
KRISTIN
FITZGERALD,
DONNA
WANDKE, CHARLES CUSH, KRISTINE
GERICKE, JOSEPH KOZMINSKI, STACY
COLGAN, PAUL LEONG, and JANET
YANG
By: s/ Emily Bothfeld
Frank B. Garrett III (6192555)
Emily P. Bothfeld (6320338)
Robbins Schwartz Nicholas
Lifton & Taylor, Ltd.
55 West Monroe Street, Suite 800
Chicago, Illinois 60603-5144
Telephone (312) 332-7760
Fax (312) 332-7768

3

App 004

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS

ABDUL MOHAMMED,
Plaintiff,
Case No. 3:20-cv-50133

v.

Judge John R. Blakey

THE STATE OF ILLINOIS, et al.,
Defendants

.r

MEMORANDUM IN SUPPORT OF SCHOOL DISTRICT
DEFENDANTS’ MOTION TO HAVE PLAINTIFF DECLARED A
VEXATIOUS LITIGANT AND ENJOINED FROM FURTHER FILINGS
Defendants

NAPERVILLE

COMMUNITY

UNIT

SCHOOL

DISTRICT

#203

(“District”), DAN BRIDGES, NANCY VOISE, ERIN ANDERSON, SUSAN VIVIAN,
ANDREA SZCZEPANSKI, RACHEL WEISS, KRISTIN FITZGERALD, DONNA WANDKE,
CHARLES CUSH, KRISTINE GERICKE, JOSEPH KOZMINSKI, STACY COLGAN, PAUL
LEONG, and JANET YANG (collectively “School District Defendants”), by and through their
undersigned attorneys, hereby request that the Executive Committee of the Northern District of
Illinois declare pro se Plaintiff Abdul Mohammed (“Plaintiff’) a vexatious litigant and enjoin
him from further filings in this District, pursuant to the All Writs Act and Rule 11 of the Federal
Rules of Civil Procedure. In support thereof, the School District Defendants state as follows:
I.

INTRODUCTION

The Northern District of Illinois has recognized that a hallmark of our judicial system is a
court that allows filing of complaints by those untutored in the law.

Jones v. Stateville

Correctional Center, et al, 918 F.Supp. 1142, 1145 (N.D. Ill. 1995). However, it is equally well

3071 \305711764.vl

App 005

recognized that the federal courts have an inherent power and constitutional obligation to protect
their courts from conduct that impairs its ability to carry out Article III functions. Id.
Plaintiff Abdul Mohammed is a habitual filer of frivolous actions, not only in the United
States District Court for the Northern District of Illinois, but also throughout the Illinois state
court system and before various administrative agencies. In the past four years, Plaintiff has
filed three lawsuits against the School District Defendants and at least fourteen (14) lawsuits
against other named Defendants in the above-captioned matter,1 through which Plaintiff has
demonstrated a costly, time-consuming and harassing pattern of asserting unsubstantiated and
vexatious claims. Pursuant to the All Writs Act, 28 U.S.C. § 1651(a), and Rule 11 of the Federal
Rules of Civil Procedure, the Executive Committee of the Northern District of Illinois should
declare Plaintiff a vexatious litigant and enter an order enjoining Mohammed from filing
additional lawsuits in this District.
II.
A.

RELEVANT FACTUAL BACKGROUND

History of Plaintiff s Lawsuits Against School District Defendants
On November 19, 2018, Plaintiff filed a ten-count Complaint against Defendants

Naperville Community Unit School District No. 203, Erin Anderson and Susan Vivian. A copy
of the Complaint in Case No. l:18-cv-8393 is attached hereto as Exhibit 2.2 Shortly after the
Complaint was filed and the Court directed the parties to engage in preliminary discovery,
District staff members and counsel for the School District Defendants began receiving
demanding, hostile and threatening communications from Plaintiff, which included threats to
pursue the filing of further civil and administrative actions against the School District

A chart reflecting Plaintiffs litigation history is attached hereto as Exhibit 1.

2

App 006

Defendants, their counsel and other parties.

Examples of such threatening communications

include, but are not limited to the following:
•
•
•

•

•

On March 25, 2019, Plaintiff sent an email to counsel stating: “Just think that the process
to get your ass sued has just started.”
On April 10, 2019, Plaintiff sent another email to counsel stating: “Reply to this email
below by Noon today or face an ARDC and ISBE Complaint.”
In an April 18, 2019 email responding to counsel’s request for revisions to a proposed
joint initial status report, Plaintiff stated: “[G]et prepared to drag your backsides to the
United States Senate Judiciary Committee.”
On June 4, 2019, upon receipt of discovery requests from the School District Defendants,
Plaintiff sent an email to counsel stating: “[A]ll your Interrogatories and production of
Documents are just harassment and I trashed it in a [ ] in my kitchen. Further
Interrogatories and production of Documents has caused me immense mental injury
which will now result in a fresh round of complaints in various courts, administrative
agencies etc.”
Plaintiff sent a subsequent email to counsel on June 5, 2019, stating: “These lame ass
interrogatories had added more Counts and more Defendants to my impending Lawsuit.
Harass me at cost of more Lawsuits, Charges, Administrative Complaints, Complaints to
the
United States Senate Judiciary Committee, IDHR, etc. I have the whole lot,
whole
.the
.the
whole
lot,
whole
lot,
at my disposal.”
lot,

See School District Defendants’ Motion for Sanctions, attached hereto as Exhibit 3.
As a result of Plaintiffs escalating, persistent and egregious litigation misconduct, on
August 21, 2019, the Court invoked its inherent sanctioning authority to dismiss Plaintiffs
Complaint, and Case No. l:18-cv-9303 as a whole, with prejudice.

See August 21, 2019

Memorandum Opinion and Order, attached hereto as Exhibit 4. Plaintiff immediately appealed
the Court’s August 21, 2019 dismissal order, along with subsequent orders (a) directing Plaintiff
to pay the School District Defendants’ attorneys’ fees expended in connection with bringing

2 Plaintiff’s Complaint was initially filed in the Circuit Court of DuPage County. On December 21, 2018, the
School District Defendants removed the case to the United States District Court for the Northern District of Illinois.
On December 26, 2018, Plaintiff filed a Motion to Remand, which the Court denied on January 2, 2019.

3

App 007

Plaintiffs misconduct to the Court’s attention and (b) denying Plaintiffs motion for
reconsideration.3
Plaintiff did not stop there, however. On September 9, 2019, Plaintiff filed a second
lawsuit against the District, Anderson, Vivian, and eleven other District Board members and
employees, along with attorney Joe Miller and the law firm Ottosen, Britz, Kelly, Cooper &
Dinolfo, Ltd. (collectively “Law Firm Defendants”). The Complaint in Case No. 1:19-cv-6525,
attached hereto as Exhibit 5, consists of twenty-five (25) counts which stem from the same
subject matter as Case No. 1:18-cv-8393. See January 17, 2020 Order, attached hereto as Exhibit
6 (granting School District Defendants’ motion to reassign Case No. 1:19-cv-6525 to calendar of
same judge who presided over Case No. 1:18-cv-8393, pursuant to Local Rule 40.3(b)(2)). The
School District Defendants and Law Firm Defendants filed separate Motions to Dismiss the
Complaint in Case No. 1:19-CV-6525, which are currently pending.
B.

Initiation of Case No. 3:20-cv-50133
Notwithstanding the dismissal sanction that Plaintiff received in Case No. l:18-cv-8393,

and despite the fact that Plaintiff currently has a matter pending against the School District
Defendants in the Eastern Division of this Court, Plaintiff filed the instant action on April 16,
2020, in this Court’s Western Division. Plaintiffs 484-page Complaint in Case No. 3:20-cv50133, attached hereto as Exhibit 7, contains 117 counts directed to the School District
Defendants, Law Firm Defendants, and more than twenty other individuals, agencies and
governmental entities, including the State of Illinois, three DuPage County Circuit Court judges
and Plaintiffs ex-wife.

3 Plaintiff’s appeals in Case No. l:18-cv-8393 are currently pending before the United States Court of Appeals for
the Seventh Circuit.

4

App 008

Of the seventeen (17) counts specifically directed to the School District Defendants, at
least fourteen (14) are identical to those in Plaintiffs pending Complaint in Case No. l:19-cv6526 and relate to the same general allegations that the School District Defendants participated
in the filing of false DCFS reports, police reports and/or reports with the DuPage County Child
Advocacy Center. Plaintiff adds new claims of alleged violations of the Racketeering Influenced
and Corrupt Organizations Act (“RICO”), 18 U.S.C. § 1961 et seq., and conspiracy to violate
RICO, on the basis that the District and individual School District Defendants—along with over
a dozen other named Defendants—were allegedly part of some conspiracy or scheme to commit
immigration benefits fraud.
Additionally, since April 16, 2020, Plaintiff has amended the Complaint in Case No.
3:20-cv-50133 five (5) separate times, all without seeking leave of Court. The most recently
filed version—Plaintiffs Fifth Amended Complaint—contains nearly 3,000 pages of exhibits,
which include complaints and transcripts from Plaintiffs other actions against Defendants in
federal and State court. See Fifth Amended Complaint, attached hereto as Exhibit 8.
C.

History of Lawsuits Against Other Named Defendants in Case No. 3:20-cv-50133
While prosecuting his various actions against the School District Defendants, Plaintiff

has simultaneously engaged in a similar pattern of duplicative, vexatious and harassing filings
against numerous other named Defendants in the above-captioned matter, both in this Court and
in various Illinois State Courts. Plaintiffs Northern District filings have resulted in four (4)
dismissals, one of which included a finding of frivolousness and a caution that Plaintiff could
face sanctions as a result of any further filings. See June 22, 2018 Order, attached hereto as
Exhibit 9. From 2016 to present, Plaintiff has also filed numerous actions in Illinois state courts
which were similar to those brought before and dismissed by this Court. All such actions were

5

App 009

either dismissed at the trial court level or non-suited upon Plaintiff obtaining counsel. See
Exhibit 1.
As a result of Plaintiff s multiple duplicative, vexatious and harassing State court filings,
on August 21, 2019, Defendants Islamic Center of Naperville, Shoaib Khadri, Beena Farid,
Shahab Sayeedi and Khalid Ghori (collectively “ICN Defendants”) filed a motion in the Circuit
Court of DuPage County, seeking to enjoin Plaintiff from “filing, prosecuting, or proceeding”
with any action against the ICN Defendants in any Illinois Court or administrative agency
without leave of court by way of a State court order. On September 10, 2019, the Circuit Court
of DuPage County granted the ICN Defendants’ Motion for Injunctive Relief, finding that
Plaintiff “has engaged in the filing of multifarious litigation and claims in Illinois State and
Federal Courts and Administrative Agencies ... for the improper purpose of harassing the
defendants and respondents named in those cases.” See September 10, 2019 Order, attached
hereto as Exhibit 10.
III.
A.

Argument

The Executive Committee Should Enjoin Plaintiff from Future Filings Pursuant to
the All Writs Act.
The Executive Committee should enjoin Plaintiff from future filings pursuant to the All

Writs Act.

28 U.S.C. § 1651(a).

The All Writs Act states, in pertinent part, “all courts

established by the Act of Congress may issue all writs necessary or appropriate in aid of their
respective jurisdiction and agreeable to the usages and principles of law.” 28 U.S.C. § 1651(a).
Federal courts have both the power and the constitutional obligation to protect their jurisdiction
from conduct which impairs their ability to carry out Article III functions. In re Chapman, 328
F.3d 903, 905 (7th Cir. 2003). The All Writs Act provides a mechanism for the Supreme Court
and all courts established by Act of Congress to issue writs necessary to prevent vexatious

6

App 010

litigation. Additionally, the Executive Committee, as an administrative arm of the District Court,
is capable of exercising judicial power. Id. at 903.
The Northern District of Illinois’ Executive Committee has broad authority to regulate
the attorneys who seek to practice before the district court. In re Shalaby, 775 Fed. App'x 249,
250 (7th Cir. 2019). See also In re Phillips, 11A Fed. App'x 296, 297 (7th Cir. 2019) (“Courts
have ample authority to curb abusive and repetitive litigation by imposing filing restrictions, so
long as the restrictions are narrowly tailored to the nature and type of abuse.). In doing so,
several district court judges have referred a harassing litigant to the Executive Committee of the
Northern District for consideration of an injunction against the filing of any further pleadings
until certain specified procedures are followed. McCutcheon v. New York Stock Exchange, Inc.,
1989 WL 82007, at *7 (N.D. Ill. Jul. 10, 1989); Sloan v. Kessler, 1996 WL 364742, at *4 (N.D.
Ill. Jun. 27, 1996).
The Supreme Court has noted that “[t]he goal of fairly dispensing justice ... is seriously
compromised when the court is forced to devote its limited resources to the processing of
repetitious and frivolous requests.” In re Sindram, 498 U.S. 177, 179—80 (1991) (holding that
petitioner’s request that Court consider same claims petitioner had presented in over a dozen
prior petitions was frivolous and abusive.) A pattern of groundless and vexatious litigation
justifies an order placing restrictions on further filings. Lysiak v. Commissioner, 816 F.2d 311,
313 (7th Cir. 1987); Jones, 918 F. Supp. at 1142.
Plaintiff has filed three lawsuits against the School District Defendants, several
amendments to those lawsuits, and at least fourteen (14) lawsuits against other named
Defendants in the above-captioned matter, demonstrating a costly, time-consuming and harassing
pattern of asserting unsubstantiated and vexatious claims. See Exhibits 1, 5, 7, 8. Plaintiffs

7

App 011

latest Complaint in the above-captioned matter rests squarely on the same operative facts as
those previously relied upon in Case No. 19-cv-6525, and in Plaintiffs other lawsuits in the
Illinois state courts and in charges brought before various administrative agencies. See Exhibits
2, 5-7. This fact is made abundantly clear both through the lack of particularized allegations
against each individual Defendant4 and through the over three thousand (3,000) pages of exhibits
that Plaintiff attached to his Fifth Amended Complaint, which include the complaints and
transcripts from his previous proceedings in the Northern District, in Illinois courts and before
administrative agencies. See Exhibit 10.
Plaintiff has filed at least seven (7) complaints in this Court alone over the course of four
(4) years and has failed to obtain relief in any of them. See Exhibit 1. Where, as here, a plaintiff
has demonstrated a pattern of frivolous, repetitious, malicious, vexatious or harassing litigation,
and where such litigation is likely to continue absent Court intervention, it is proper for the
Executive Committee to declare the plaintiff a vexatious litigant and enjoin him or her from
future filings.

Lysiak, 816 F.2d at 313.

See also Chapman, 328 F.3d at 905 (upholding

Executive Committee’s imposition of filing restrictions against litigant as exercise of
Committee’s inherent power and constitutional obligation to protect Court’s jurisdiction from
conduct which impairs Court’s ability to carry out Article III functions).

4 The repetition of general allegations against numerous defendants is a common feature of Plaintiff s complaints,
and an Illinois appellate court upheld the dismissal of one of Plaintiff s DuPage County complaints largely for this
reason. See Mohammed v. Hamdard Ctr. for Health & Human Servs., 2020 WL 401966, at *2, *4 (Ill. App. 2d Jan.
22, 2020) (“Plaintiff did not specify which statements were attributable to which defendant. . . . Plaintiff failed to
allege what hate crime was committed or by whom. His general allegation was not sufficient to alert any specific
defendant with what he or she was charged and to allow an adequate response.”).

8

App 012

B.

Rule 11 of the Federal Rules of Civil Procedure Likewise Requires the Executive
Committee to Enter an Injunction Against Plaintiff.
It is similarly appropriate for the Executive Committee to declare Plaintiff a vexatious

litigant pursuant to Rule 11 of the Federal Rules of Civil Procedure. Rule 11 requires that all
pleadings, motions, or other papers not be brought for improper purposes. Fed. R. Civ. P. 11. A
court will impose sanctions under Rule 11 where it determines a party should have known that
his or her position was groundless, Portman v. Andrews, 249 F.R.D. 279, 282 (N.D. Ill. 2007), or
where it determines that a party’s motivation was to delay or harass the opposing party, Carr v.
Tillery, 2010 WL 1963398, at *4 (S.D. Ill. May 17, 2010). Pursuant to Rule 11, courts may
:

control vexatious litigants by imposing monetary sanctions or issuing injunctions to enjoin the
plaintiff from re-litigating specific claims against specific defendants. Portman, 249 F.R.D. at
283.
A party seeking an injunction must show “it has succeeded on the merits; no adequate
remedy at law exists; the moving party will suffer irreparable harm without injunctive relief; the
irreparable harm suffered without injunctive relief outweighs the irreparable harm the non
prevailing party will suffer if the injunction is granted; and the injunction will not harm public
interest.” Carr, 2010 WL 1963398, at *10. Additional factors that courts consider to determine
whether to enjoin vexatious litigants include: “(1) the litigant’s history of litigation and in
particular whether it entailed vexatious, harassing, or duplicative lawsuits; (2) the litigant’s
motive in pursuing the litigation, e.g. whether the litigant has an objective good faith expectation
of prevailing; (3) whether the litigant is represented by counsel; (4) whether the litigant has
caused needless expense to other parties or has posed an unnecessary burden on the courts and
their personnel; and (5) whether other sanctions would be adequate to protect the courts and
other parties.” Id. at 12.

9

A pp 013

In this case, not only are the five injunction factors met, but every one of the
considerations of the Court sways in the favor of the School District Defendants. Plaintiffs
harassing claims against the School District Defendants and other named Defendants have no
basis in fact or law and have already been rejected on the merits by every court that has
considered them. See Exhibits 1,4, 10. Plaintiffs decision to sue a multitude of lawyers and
judges who have become involved at any level in his underlying matters, making rash,
unfounded accusations against the Court and counsel, evidences an unreasonable determination
to continue to make frivolous filings not in good faith, causing great prejudice to the School
District Defendants and other named Defendants, and unduly burdening the court system. See
Exhibits 3-5, 7-8, 10. Under these circumstances, it is appropriate for this Court to find that
Mohammed is a vexatious litigant and to bar him from filing any further pleadings in this
District.
Conclusion
As this Court has observed, “[sjome litigants refuse to accept defeat. On they wade,
naming the judges and lawyers in the prior case as additional defendants in an ever-widening
conspiracy.” Sato v. Plunkett, 154 F.R.D. 189, 190 (N.D. Ill. 1994). Fortunately, pursuant to the
All Writs Act and Rule 11, the Executive Committee has the power to impose sanctions and
enjoin future filings by pro se litigants where, as here, they file a matter in bad faith or for
vexatious reasons. See, e.g., Lysiak v. Comm'r of Internal Rev., 816F.2d 311, 313 (7th Cir.
1987). As such, Plaintiff should be declared a vexatious litigant and enjoined from future filings.
WHEREFORE, Defendants NAPERVILLE COMMUNITY UNIT SCHOOL DISTRICT
#203, DAN BRIDGES, NANCY VOISE, ERIN ANDERSON, SUSAN VIVIAN, ANDREA
SZCZEPANSKI,

RACHEL

WEISS,

KRISTIN

10

App 014

FITZGERALD,

DONNA

WANDKE,

CHARLES CUSH, KRISTINE GERICKE, JOSEPH KOZMINSKI, STACY COLGAN, PAUL
LEONG, and JANET YANG respectfully request that the Executive Committee of the Northern
District of Illinois declare Plaintiff Abdul Mohammed a vexatious litigant and enjoin him from
future filings in this District.
Respectfully submitted,
NAPERVILLE
COMMUNITY
UNIT
SCHOOL DISTRICT 203, DAN BRIDGES,
NANCY VOISE, ERIN ANDERSON,
ANDREA
VIVIAN,
SUSAN
SZCZEPANSKI,
RACHEL
WEISS,
KRISTIN
FITZGERALD,
DONNA
WANDKE, CHARLES CUSH, KRISTINE
GERICKE, JOSEPH KOZMINSKI, STACY
COLGAN, PAUL LEONG, and JANET
YANG
By: /s/ Emily P. Bothfeld

Frank B. Garrett III (6192555)
Emily P. Bothfeld (6320338)
Robbins Schwartz Nicholas
Lifton & Taylor, Ltd.
55 West Monroe Street, Suite 800
Chicago, Illinois 60603-5144
Telephone (312) 332-7760
Fax (312) 332-7768

11

A pp 015

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

rNT THE UNITED STATES DISTRICT COURT FOR NORTHERN DISTRICT OF ILLINOIS.
WESTERN DIVISION

ABDUL MOHAMMED.
PLAINTIFF
vs.
STATE OF ILLINOIS ET.AL
DEFENDANTS,

CASE # 20-CV-50133
JUDGE JOHN R. BLAKEY
MAGISTRATE JUDGE IAIN JOHNSTON

SECOND AMENDED PLAINTIFF’S RESPONSE TO SCHOOL DISTRICT DEFENDANTS’ MOTION TO
HAVE PLAINTIFF DECLARED A VEXATIOUS LITIGANT AND ENJOINED FROM FURTHER FILINGS
AND PLAINTIFF’S MOTION FOR SANCTIONS AGAINST SCHOOL DISTRICT DEFENDANTS AND
THEIR ATTORNEYS PURSUANT TO THIS COURT’S INHERENT AUTHORITY AND PURSUANT TO
RULE 11 OF THE FEDERAL RULES OF CIVIL PROCEDURES
1.

The School District Defendants’ Motion to have the Plaintiff declared a vexatious litigant and enjoined from further
filings in this court is nothing but another version of the persecution and killing of Eric Gamer and George Floyd by
white attorneys and white judges. The only difference here is that instead of Eric Garner and George Floyd this time
it is Abdul Mohammed and instead of a street the persecution of Abdul Mohammed is being carried out by white
attorneys and white judges in a courtroom as described in this Response and as described in detail in 558-page Fifth
Amended Complaint consisting of 3419 pages of Exhibits in Case # 20-cv-50133. The 558-page Fifth Amended
Complaint consisting of 3419 pages of Exhibits in Case # 20-cv-50133 has not dropped from the sky.

2. Today the United States is up in flames from coast to coast due to the persecution of non-white people by the white
people holding public offices. Millions of white people are also participating in protests in response to George Floyd’s
murder at the hands of a white police officer.
3.

A litigant by the name of Gersh Zavodnik was only warned about sanctions after he filed 123 lawsuits in a period of
6 years from 2008 to 2014 across the State of Indiana. See Gersh Zavodnik v. Irene Harper, 49A04-1307-PL-316.

4. All the lawsuits and complaints other than Case # 18-cv-8393 and Case # 19-cv-6525 attached as Exhibits by the
School District Defendants have nothing to do with them and it is just a frivolous and futile attempt to muddy the
waters.
5.

Case # 18-cv-8393 was dismissed as a sanction against the Plaintiff without reaching the merits of the complaint and
the appeal is pending in Court of Appeals for the 7th Circuit. Further, the Case # 18-cv-8393 was originally filed in
DuPage County Circuit Court by the Plaintiff (Case # 18-L-1312, DuPage County Circuit Court) and the School
District Defendants removed the Case # 18-L-1312 to this court from DuPage County Circuit Court and it was
assigned Case # 18-cv-8393 by this court. Case # 18-cv-8393 cannot even be counted as filed in this court by the

App 016

1

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

Plaintiff and the School District Defendants’ are seeking sanctions for the Case # 18-cv-8393 which the Plaintiff did
not even file in this court.
6.

Case # 19-cv-6525 is pending in front of Judge Feinerman who continues to preside over that case despite having
lost subject matter jurisdiction over that case due to various violations of the Codes of Judicial Conduct and also
violations of 28 U.S.C. § 455(a) and (b)(1). Further, the Case # 19-cv-6525 was originally filed in Kane County Circuit
Court(Case # 19-L-419, Kane County Circuit Court) and the Defendants removed the Case # 19-L-419 from Kane
County Circuit Court to this court and it was assigned Case # 19-cv-6525. Case # 19-cv-6525 cannot even be counted
as filed in this court by the Plaintiff and the School District Defendants’ are seeking sanctions for the Case # 19-cv6525 which the Plaintiff did not even file in this court.

7.

Most of the Plaintiffs complaints attached as Exhibits by the School District Defendants were only dismissed due to
lack of legal representation. If the Plaintiff had legal representation, he would have prevailed in most of his cases.

8.

Further, the School District Defendants have misrepresented that Case # 19-cv-6525 was filed in this court by the
Plaintiff when in fact the School District Defendants brought the Case # 19-cv-6525 from Kane County Circuit Court
to this court and such misrepresentation constitutes a fraud upon the court.

9.

Exhibit-2 attached to the School District Defendants’ Motion is the Case which the Plaintiff filed in DuPage County
Circuit Court and the School District Defendants removed it to this court and it was assigned the Case # 18-cv-8393
by this court. Exhibit-2 has no value for the instant Motion.

10. Exhibit-3 attached to the School District Defendants’ Motion is the School District Defendants’ Motion for Sanctions
in Case # 18-cv-8393 and Plaintiffs appeal from the dismissal of that case as a sanction remains pending. Exhibit-3
has no value for the instant Motion.
11. Exhibit-4 attached to the School District Defendants’ Motion is the Memorandum Opinion and Order of the District
Court which dismissed the Plaintiffs Case # 18-cv-8393 and Plaintiffs appeal from the dismissal of that case as a
sanction remains pending. Exhibit-4 has no value for the instant Motion.
12. Exhibit-5 attached to the School District Defendants’ Motion is the Case which the Plaintiff filed in Kane County
Circuit Court and the School District Defendants removed it to this court and it was assigned the Case # 19-cv-6525
but the School District Defendants have not pointed that in their Motion and hence they mislead this court that Case
# 19-cv-6525 was filed in this court by the Plaintiff when in fact School District Defendants brought that case to this
court from Kane County Circuit Court. Exhibit-5 has no value for the instant Motion.
13. Exhibit-6 attached to the School District Defendants’ Motion is the Judge Kennedy's Minute Order to Executive
Committee for reassigning Case No. 19 C 6525 to Judge Feinerman. Exhibit-6 has no value for the instant Motion.
14. Exhibit-7 attached to the School District Defendants’ Motion is the original complaint from Case # 20-cv-50133
pending in front of Judge Blakey. Ottosen Britz Defendants filed a Motion to reassign Case # 20-cv-50133 to Judge
Feinerman but the Motion was denied and Judge Feinerman ruled in his Minute Order, “MINUTE entry before the
Honorable Gary Feinerman: Motion to reassign case [69] is denied. Although there is some overlap between this case

App 017

2

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

and Case No. 20 C 50133 (N.D. Ill.), the overlap is not sufficient enough to warrant reassignment under Local Rule
40.4. This order is without prejudice to Defendants in Case No. 20 C 50133 moving to dismiss on claim preclusion,
claim splitting, or duplicative litigation grounds. The status hearing set for 5/15/2020 [67] is stricken and re-set for
6/16/2020 at 9:00 a.m. Motion hearing set for 5/12/2020 [70] is stricken”. The Defendants in this case take turns in
filing frivolous and futile Motions to somehow stop the Plaintiff in his tracks and to prevent him from asserting his
claims in an unlawful manner.
15. Exhibit-8 attached to the School District Defendants’ Motion is the Fifth Amended Complaint and the operative
complaint from Case # 20-cv-50133 pending in front of Judge Blakey. Exhibit-8 has no value for the instant Motion.
16. Exhibit-9 attached to the School District Defendants’ Motion is the Order from Judge Guzman dismissing Plaintiffs
Case No. 18 CV 4248. Judge Guzman happens to be one of those Judges far removed from the realities. Judge Posner
of 7th Circuit retired from the bench and the reason for his sudden retirement he stated was “The basic thing is that
most judges regard these people as kind of trash not worth the time of a federal judge,” Judge Posner said regarding
the other Judges’ treatment of the Pro Se litigants. Judge Posner told the New York Times that most judges regard
Pro Se litigants as “kind of trash not worth the time of a federal judge.” Judges in the 7th Circuit generally rubberstamp recommendations of staff lawyers who review Pro Se appeals, he said. And Judge Posner said he was rebuffed
when he wanted to give Pro Se litigants a better shake by reviewing the staff attorney memos before they were
circulated to judges. Judge Guzman is one of such attorneys who regard Pro Se litigants as trash. Exhibit-9 has no
value for the instant Motion.
17. Exhibit-10 attached to the School District Defendants’ Motion is the Case # 19-L-75 pending in DuPage County
Circuit Court where none of the School District Defendants’ are being sued. Case # 19-L-75 pending in DuPage
County Circuit Court is the case where the Defendants in that case conspired to murder the Plaintiff, conspired the
murder for hire of the Plaintiff, hired an unknown man known as “Dee” to murder the Plaintiff and made attempts
to murder the Plaintiff. PlaintifPs interlocutory appeal regarding Plaintiff’s allegations that Defendants in the Case #
19-L-75 conspired to murder the Plaintiff, conspired the murder for hire of the Plaintiff, hired an unknown man
known as “Dee” to murder the Plaintiff and made attempts to murder the Plaintiff is pending in Appellate Court of
Illinois for the Second Division. For a complete understanding of Plaintiffs allegations that Defendants in the Case
# 19-L-75 conspired to murder the Plaintiff, conspired the murder for hire of the Plaintiff, hired an unknown man
known as “Dee” to murder the Plaintiff and made attempts to murder the Plaintiff, please see Plaintiff s Appellant’s
Brief and Reply Brief from interlocutory appeal # 2-19-0828 Appellate Court of Illinois for the Second Division
(Exhibit-A of this Response). ICNA Defendants from the Case # 19-L-75 informed the other Defendants in that
case that they don’t want to be part of the conspiracy to murder the Plaintiff, conspiracy of murder for hire of the
Plaintiff and the attempts made to murder the Plaintiff. When the Plaintiff came to know about some of the
Defendants’ conspiracy to murder the Plaintiff, conspiracy of murder for hire of the Plaintiff and the attempts made
to murder the Plaintiff in the Case # 19-L-75, he sent an email to the attorneys of some of the Defendants in Case #

App 01 8

3

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

19-L-75 in which the Plaintiff stated, “There was a legendary poet in my country of birth, Mirza Ghalib(1797-1869)
and he said in Urdu, “kaaba Ids munh se jaoge ‘ghalib’ sharm turn ko magar nahln aatl”. The English translation is,
“With what face you will go to pilgrimage to Mecca, you have no shame whatsoever”. What Mirza Ghalib said is so
apt for KOB and MW that I feel he wrote it for people like you”. After reading the email Jessica Howell, (paralegal
of ICNA Defendants’ attorney Zubair Khan) understood what the Plaintiff was going through and she understood
what the Plaintiff was referring to and she had the wisdom to know that the Plaintiff in his email was referring to
some of the Defendants’ conspiracy to murder the Plaintiff, conspiracy of murder for hire of the Plaintiff and the
attempts made to murder the Plaintiff in Case # 19-L-75 and she replied to the Plaintiffs email and stated, “We
understand that you have been through an immeasurably rough year but that is not the fault of our client
and any of its attorneys and support staff. We are all well aware of your situation and understand your anger
and frustration, but it is being misplaced”. Please see Plaintiffs Appellant’s Brief and Reply Brief from
interlocutory appeal # 2-19-0828 Appellate Court of Illinois for the Second Division (Exhibit-A of this Response)
for Jessica Howell’s email. Exhibit-10 has no value for the instant Motion. The interlocutory appeal # 2-19-0828
remains fully briefed in Appellate Court of Illinois for the Second Division since January 21, 2020 and if there was no
substance in the Plaintiffs interlocutory appeal, the appeal would have been dismissed long back.
18. Exhibit-1 attached to the School District Defendants’ Motion is a list of Pleadings from Plaintiffs Family Court Case
or allegations which have been incorporated in pending cases. Exhibit-1 has no value for the instant Motion.
19. School District Defendants and other Defendants of white color somehow believe that they are entitled to have the
Plaintiffs claims in this case dismissed solely because they belong to a particular race, religion, color, ethnicity, national
origin, nationality, citizenship, etc.
20. School District Defendants and other Defendants of white color in this case somehow also believe that they are
entitled to have the Plaintiffs claims, in this case, dismissed solely because they and the Judges in this Case, in Case
No. 19 C 6525, Case No. 18 C 8393 and other cases, belong to the same race, religion, color, ethnicity, national origin,
nationality, citizenship, etc.
21. The instant Motion is an attempt by School District Defendants to influence the Executive Committee for decisions
against the Plaintiff based on his race, religion, color, ethnicity, national origin, nationality, citizenship, etc.
22. The instant Motion is an attempt by School District Defendants to influence the Executive Committee for favorable
decisions for them in this case based on her race, religion, color, ethnicity, national origin, nationality, citizenship, etc.
FRAUD UPON THE COURT
23. The School District Defendants’ Pleadings and the instant Motion aren’t quickly or crudely written; rather, they tend
to be quite carefully crafted and polished to create the appearance of a legitimate issue for resolution. Let’s start with
the basics for the School District Defendants’ attorneys in this case. Rule 3.3(a)(2) of the Model Rules of Professional
Conduct says, “A lawyer shall not knowingly fail to disclose to the tribunal legal authority in the controlling jurisdiction
known to the lawyer to be directly adverse to the position of the client and not disclosed by opposing counsel. ” Rule

App 019

4

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

11 says, “By presenting to the court a written motion an attorney certifies that to the best of the person’s knowledge,
information, and belief, formed after an inquiry reasonable under the circumstances, the legal contentions are
warranted by existing law or by a nonfrivolous argument for extending, modifying, or reversing existing law or for
establishing new law.” When it comes to citation abuse by lawyers, there are two most widely cited cases, Jorgenson v.
County of Volusia, 846 F.2d 1350, 1351-52 (11th Cir. 1988), and Golden Eagle 'Distributing Corp. v. Burroughs Corp., 801 F.
2d 1531 (9th Cir. 1986). Jorgenson affirmed sanctions against a lawyer for failing to cite adverse precedent in the context
of an exparte proceeding. Accord Maine Audubon Soc. v. Purslow, 907 F. 2d 265 (1st Cir. 1990). In Golden Eagle, the Court
of Appeals agreed that “[a] lawyer should not be able to proceed with impunity in real or feigned ignorance of
authorities which render his argument meridess,” citing Badgers v. Lincoln Towing Service, Inc., 771 F.2d 194, 205 (7th
Cir.1985). In Precision Specialty Metals, Inc. v. US, 315 F.3d 1346 (Fed. Cir. 2003), attorney Mikld Walser was sanctioned
for quoting from and citing published opinions, when she distorted what the opinions stated by leaving out significant
portions of the citations or cropping one of them, and failed to show that she and not the court has supplied the
emphasis in one of them. We know of no appellate decision holding that Rule 11 does not cover such misstatements
oflegal authority. Cf. Teamsters Local No. 579 v. B & M Transit., Inc., 882F.2d 274, 280 (7th Cir.1989) (upholding Rule
11 sanction for “misstating the law”); Borowski v. DePuy, Inc., 850 F.2d 297, 304-05 (7th Cir.1988) (Counsel’s “ostrich­
like tactic of pretending that potentially dispositive authority against [his] contention does not exist [is] precisely the
type of behavior that would justify imposing Rule 11 sanctions.” (internal citation omitted)). In the instant case, School
District Defendants, and their attorneys, have done exacdy similar to what attorney Mikki Walser did in Precision
Specialty Metals, Inc. by misrepresenting to the Executive Committee that the Plaintiff filed the Case # 19-cv-6525 in
this court. In Precision Specialty Metals, Inc in an unpublished opinion, the Court of International Trade formally
reprimanded the appellant Mikld Graves Walser, a Department ofJustice attorney, for misquoting and failing to quote
fully from two judicial opinions in a motion for reconsideration she signed and filed and the United States Court of
Appeals for Federal District affirmed District Court’s Order for Sanctions against Attorney Mikki Graves Walser.
Rule 11 sanctions are warranted for School District Defendants and their attorneys in the instant case for misconduct
as described above. The United States District Courtfor Western District of Washington in Fulton v. Livingston Fin., LLC, No.
C15-0574 JLR, 2016 WL 3976558 (W.D. Wash. July 25, 2016), entered sanctions against attorney John Ryan for
behavior similar to the behavior of School District Defendants and their attorneys as described here. Under the rules
of practice applicable in federal courts and the courts of virtually every state, an attorney may not knowingly fail to
disclose controlling authority that is direcdy adverse to the position he or she advocates. See, eg., Cal. Rules Prof.
Conduct, Rule 5-200(B) (counsel shall not mislead the court regarding the facts or law); ABA Model Code Prof.
Responsibility, DR 7-106(B)(l) (lawyer shall disclose to the court legal authority in the controlling jurisdiction known
to him to be direcdy adverse to the position of his client and which is not disclosed by opposing counsel); ABA Model
Rules Prof. Conduct, Rule 3.3 (lawyer shall not knowingly fail to disclose to the tribunal legal authority in the
controlling jurisdiction known to the lawyer to be direcdy adverse to the position of the client and not disclosed by

App 020

5

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

opposing counsel). The Ninth Circuit has observed that the rule to disclose adverse authority to the tribunal “is an
important one, especially in the district courts, where its faithful observance by attorneys assures that judges are not
the victims of lawyers hiding the legal ball.” Transamerica leasing, Inc v. Compania Anonima Vene^olana de Navegacion, 93
F.3d 675, 675-76 (9th Cir.1996). Ensuring candor toward the court is especially important when, as here, both parties
advocate a particular result and the pleadings lack the usual adversarial sharpness that characterizes motion practice.
Examples abound of courts approving disciplinary action against attorneys who knowingly fail to disclose adverse
authority. See, e.g., Southern Pacific Transp. Co. v. Public Utilities Comm ’n. ofState of Cal, 716 F.2d 1285,1291 (9th Cir.1983)
(characterizing an attorney’s failure to acknowledge controlling precedent as “a dereliction of [its] duty to the court
...”); United States v. Stringfellow, 911 F.2d 225, 226 (9th Cir.1990) (where counsel fails to cite controlling case law that
renders its position frivolous, he or she “should not be able to proceed with impunity in real or feigned ignorance of
them, and sanctions should be upheldMalbiot v. Southern California detail Clerks Union, 735 F.2d 1133, 1138 (9th
Cir.1984) (sanctioning party sua sponte under 28 U.S.C. § 1927 for deliberately misquoting statute); Coastal Transfer
Co. v. Toyota Motor Sales, U.S.A., 833 F.2d 208, 212 (9th Cir.1987) (awarding sanctions in part because argument on
appeal ignored controlling Supreme Court authonty); McEinety v. Merit Sys. Protection Bd., 963 F.2d 1512, 151617 (Fed.Cir.1992) (awarding sanctions on appeal for fading to reference or discuss controlling precedent); DeSisto
College, Inc. v. Line, 888 F.2d 755, 766 (11th Cir.1989) (noting that counsel must acknowledge the binding precedent of
the circuit). In Fuery v. City of Chicago, 900 F.3d 450 (7th Cir. 2019), the court ruled, “ Moreover, it goes without saying
and hardly needs citation that a court need not warn a Plaintiff, and particularly not a lawyer, that it may not he to a
court. See, e.g., ^4youbi v. Dart, 640 F. App’x 524, 529 (7th Cir. 2016) (“no one needs to be warned not to he to the
judiciary.”) (citing Mathis v. N.Y. Life Ins. Co., 133 F.3d 546, 547 (7th Cir. 1998)). Dishonesty to the Court alone is
sufficient to merit dismissal of a claim.” Fuery, 2016 WL 5719442, at *12. See Montano v. City of Chicago, 535 F.3d 558,
563 (7th Cir. 2008) (“A district court has inherent authority to sanction conduct that abuses the judicial process”); Allen
v. Chicago Transit Auth., 317 F.3d 696, 703 (7th Cir. 2003) (“it is arguable that a litigant who defrauds the court should
not be permitted to continue to press his case.”). A litigant’s misconduct can justify default judgment, see National
Hockey League v. Metropolitan Hockey Club, Inc., 427 U.S. 639, 96 S.Ct. 2778,49 L.Ed.2d 747 (1976), and perjury is among
the worst kinds of misconduct. Whenever any officer of the court commits fraud dunng a proceeding in the court,
he/she is engaged in “fraud upon the court”. In Bulloch v. the United States, 763 F.2d 1115, 1121 (10th Cir. 1985), the
court stated “Fraud upon the court is fraud which is directed to the judicial machinery itself and is not fraud between
the parties or fraudulent documents, false statements or perjury. ... It is where the court or a member is corrupted or
influenced or influence is attempted or where the judge has not performed his judicial function — thus where the
impartial functions of the court have been directly corrupted.” “Fraud upon the court” has been defined by the 7th
Circuit Court of Appeals to “embrace that species of fraud which does, or attempts to, defile the court itself, or is a
fraud perpetrated by officers of the court so that the judicial machinery cannot perform in the usual manner its
impartial task of adjudicating cases that are presented for adjudication.” Kenner v. C.I.R., 387 F.3d 689 (1968); 7 Moore’s

App 021

6

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

Federal Practice, 2d ed., p. 512,

60.23. The 7th Circuit further stated, “a decision produced by fraud upon the court

is not, in essence, a decision at all, and never becomes final”. “Fraud upon the court” makes void the orders and
judgments of that court. It is also clear and well-settled Illinois law that any attempt to commit “fraud upon the court”
vitiates the entire proceeding. The People ofthe State ofIllinois v. Fred E. Sterling 357 Ill. 354; 192 N.E. 229 (1934) (“The
maxim that fraud vitiates every transaction into which it enters applies to judgments as well as to contracts and other
transactions.”); Allen F. Moore v. Stanley F. Sievers, 336 Ill. 316; 168 N.E. 259 (1929) (“The maxim that fraud vitiates
every transaction into which it enters ...”); In re Village ofWillowbrook, 37 Ill.App.2d 393 (1962) (“It is axiomatic that
fraud vitiates everything.”); Dunham v. F>unham, 57 Ill.App. 475 (1894), affirmed 162 Ill. 589 (1896); Skelly Oil Co. v.
Universal Oil Products Co., 338 IllApp. 79, 86 N.E.2d 875, 883-4 (1949); Thomas Stasel v. The American Home Security
Corporation, 362 Ill. 350; 199 N.E. 798 (1935). Under Illinois and Federal law, when any officer of the court has
committed “fraud upon the court”, the orders and judgment of that court are void, of no legal force or effect.
24. In Fuery v. City of Chicago, the court ruled as follows:
“Along with the consideration of the Plaintiffs’ conduct, the district court was also entided to examine, as one factor
in its consideration, the modus operandi of the attorney as evidenced by her prior disciplinary history. Less than a
year before the trial, this court, in an entirely separate matter, described a string of misconduct by Kurtz in a trial in
the district court below and noted that she had a substantial disciplinary history. Rojas v. Town of Cicero, Ill., 775 F.3d
906, 909-10 (7th Cir. 2015). The Rojas panel highlighted that history with a string cite of seven cases in which Kurtz
had been disciplined. Id. It also noted that “Kurtz’s unwillingness to conform her conduct to requirements laid down
by judicial orders or rules of procedure is unlikely to change unless courts respond firmly.” Id. at 910. And indeed,
we were correct. The Plaintiffs complain that the district court’s reliance on this case was an invalid reason to grant
sanctions. The district court, however, made clear that its holding was not dependent on a reference to Rojas, but that
the court’s conclusion about bad faith and sanctions was “amply supported by the record in this case alone.” Fuery,
2016 WL 5719442, at *11. We do not see why, in any event, the district court could not consider Kurtz’s disciplinary
history. Indeed, a prior panel of our court encouraged courts to do just that. Rojas, 775 F.3d at 910. (encouraging
courts to respond to Kurtz’s unwillingness to conform her conduct to requirements laid down by judicial orders or
rules of procedure firmly). It is true that when presenting evidence to a jury we keep propensity evidence out of the
mix to prevent a jury from concluding that a person acted in accordance with some characteristic or trait. See Fed. R.
Evid. 404(b). In this case, however, the court was acting on its own, under its inherent authority to rectify abuses to
the judicial system by an attorney whose job it is to aid the court in the administration of justice. Courts must rely o'n
attorneys—officers of the court—to uphold rules and operate with integrity and honesty in the courtroom. Almost
200 years ago the Supreme Court in its early years explained, “it is extremely desirable that the respectability of the
bar should be maintained, and that its harmony with the bench should be preserved.” Ex parte Burr, 22 U.S. (9
Wheat.) 529, 530, 6 L.Ed. 152 (1824). When an attorney repeatedly violates the standards and oaths of the profession,
then a court may take notice of that attorney’s disciplinary history when evaluating whether sanctions are appropriate.

App 022

7

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

Rojas at 909 (7th Cir. 2015). Here, however, the record amply supports the sanctions with or without considering
Kurtz’s disciplinary history”. In the instant case, this court should consider the previous misconduct of the
Defendants’ attorneys, if they have committed misconduct in the past, in deciding the quantum of punishment for
the Defendants’ attorneys. The rest of the frivolous arguments and the case laws cited by the Defendants and their
attorneys is just a waste of ink and paper.
25. Based on the case laws cited above in paragraphs 24 and 25, the School District Defendants and their attorneys have
committed fraud upon the court within the meaning of case laws cited above in paragraphs 23 and 24 by
misrepresenting to the Executive Committee that the Plaintiff filed Case # 19-cv-6525 in this court.
26. Further strangely the School District Defendants and their attorney are seeking sanctions against the Plaintiff for their
actions which is filing of the Case # 18-cv-8393 and Case # 19-cv-6525 in this court. The matter that the Plaintiff did
not file Case # 18-cv-8393 and Case # 19-cv-6525 in this court and it is the School District Defendants who brought
Case # 18-cv-8393 and Case # 19-cv-6525 from State Courts to this court, is an affirmative defense for the Plaintiff.
Hence School District Defendants does not even reach the threshold under the All Writs Act and the Rule 11. Only
case the Plaintiff filed against the School District Defendants in this court is the Case # 20-cv-50133 pending in from
of Judge Blakey. Hence the instant Motion needs to confined to the nearest trash can.
27. Further the instant Motion is a retaliation for Plaintiff’s claims pursuant to Americans with Disabilities Act, the
Rehabilitation Act of 1973, Section 504, 42 U.S.C. § 1983 (Retaliation), Title VII (Retaliation), Fair Housing Act
(Retaliation), False Claims Act (Retaliation under 31 U.S. Code § 3730(H).
28. Further the instant Motion has given rise to brand new stand-alone claims under 42 U.S.C. § 1983 Malicious
Prosecution, Malicious Prosecution (Illinois State Law), 42 U.S.C. § 1983 Deprivation of Access to Courts, Fraudulent
Misrepresentation (Illinois State Law), 42 U.S.C. § 1983 Failure to Intervene, Hate Crimes Act of Illinois, 42 U.S.C. §
1983 Substantive Due Process (Shock the Conscience), 42 U.S.C. §1985 - (Conspiracy), Conspiracy (Illinois State
Law), IIED (Illinois State Law) and Class-of-One Claim Equal Protection Violation of 42 U.S.C. § 1983).
29. In two critical retaliation cases analyzing the breadth of Title VII’s protections—Robinson v. Shell Oil Company and
Burlington Northern & Santa Fe Ry v. White—the Supreme Court made clear that Title VII’s anti-retaliation provision
applies with full force to former employees. In Robinson, the Supreme Court ruled that the term “employee,” as used
in Section 704(a) (i.e., Title VII’s anti-retaliation provision), was ambiguous as to whether it covered former
employees; the Court reasoned, however, that the broader context of Title VII and the primary purpose of Section
704(a) compelled the conclusion that former employees are protected by the statute. As the Supreme Court stressed,
a primary purpose of Title VII’s anti-retaliation provision is “[mjaintaining unfettered access to statutory remedial
mechanisms.” Then, in Burlington, the Supreme Court expanded upon its ruling in Robinson and declared that Titlfe
VTI’s anti-retaliation provision “extends beyond workplace-related or employment-related retaliatory acts and harm.”
The Court explained that “one cannot secure the . . . objective [of Title VII’s anti-retaliation provision] by focusing
only upon employer actions and harm that concern employment and the workplace. Were all such actions and harms

App 023

8

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

eliminated, the anti-retaliation provision’s objective would not be achieved. An employer can effectively retaliate
against an employee by taking actions not directly related to his employment or by causing him harm outside the
workplace.” The Supreme Court further reasoned that “[a] provision limited to employment related actions would
not deter the many forms that effective retaliation can take”. Both state and federal courts have recognized an array
of negative actions against former employees as constituting unlawful retaliation under various statutes. Here is a
rundown of some examples of adverse actions taken by former employees that have been deemed retaliatory by
certain courts:
Filing a lawsuit against the former employee: Several courts have recognized that the filing of a lawsuit against a
former employee who complains of discrimination can qualify as unlawful retaliation. See, e.g., Durham Life Ins. Co. v.
Evans, 166 F.3d 139, 158 (3d Cir. 1999) (concluding that evidence supported finding of post-employment retaliatory
conduct, where defendant filed lawsuit against former employee for breach of her non-compete following that
employee’s resignation due to sex discrimination); Jacques v. DiMartfo, Inc., 216 F. Supp. 2d 139,144 (E.D.N.Y. 2002)
(imposing Rule 11 sanctions and dismissing defendant’s counterclaim against former employee, who had asserted
claims under the ADA and state whistleblower law; deeming defendant’s counterclaim to be a “retaliatory in terrorem
tactic against the plaintiff for bringing her claims to court”); EEOC v. Va. Carolina Veneer Corp., 495 F. Supp. 775, 778
(W.D. Va. 1980) (finding that defendant employer’s defamation action against Plaintiff, who filed an EEOC charge
against the employer a few months earlier, was “unquestionably retaliatory in nature” under Title VII). On March
13.2017, Fifth Circuit ruled in Panagiota Heath v. Southern University System Fdn. et al., that even conduct going back as
far as 2003 is covered under continuing violation doctrine of the Title VII. In the instant case, the School District
Defendants and their attorneys are using various in terrorem tactics in order to stop the Plaintiff from filing complaints
for discrimination and other violations and to stop the Plaintiff from participating in court proceedings.
30. In F.D.I.C. v. Maxxam, Inc., the district court in Texas sanctioned an attorney for misconduct that occurred in an
administrative proceeding in Washington, D.C., a proceeding that was not overseen by the district court. 532 F.3d
566, 591 (5th Cir. 2008). Upon review, the Fifth Circuit held that the court’s inherent power to sanction did not extend
to the administrative hearing but rather only extended to situations in which “a party engages in bad-faith conduct
[that directly defies] the sanctioning court.” Id at 591 (internal quotation marks omitted). Later, in Positive Software
Solutions, Inc. v. New Century Mortgage Corporation, the Fifth Circuit, relying on its Maxxam decision, held that misconduct
during arbitration was beyond the reach of the district court’s inherent power, stating that the misconduct “was neither
before the district court nor in direct defiance of its order.” 619 F.3d 458, 461 (5th Cir. 2010). Similarly to F.D.I.C. v.
Maxxam, Inc., and Positive Software Solutions, Inc. v. New Century Mortgage Corporation, this court or the Executive
Committee of this Court has no personal jurisdiction and/or subject matter jurisdiction over the Plaintiff’s complaints
in Federal and State Administrative Agencies and in State Courts.
31. In Jacques v. DiMarfo, Inc., the court mled as follows:

App 024

9

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

“In its entirety, the counterclaim, in both its original and amended versions, alleges that the plaintiff had filed two
administrative claims “for the sole purpose of harassing defendant, interfering with and damaging defendant’s
business operations, interfering with employee morale, creating employee unrest and impugning defendant’s
reputation.” Answer at

22; Am. Answer at $| 26. One claim was filed with the National Labor Relations Board

“accusing defendant of terminating Pier] employment as a result of 'her engagement in protected and concerted
activities [;]’” the other was filed with the Equal Employment Opportunity Commission and the New York State
Division of Human Rights based on “discrimination due to an alleged disability in violation of the[ADA].” Answer
at

14, 21; Am. Answer at

18, 25. The counterclaim originally sought $500,000 in damages. See Answer at $| 23.

*142 It was reduced in the amended answer, filed approximately one year later, to $50,000. See Am. Answer at $[ 27”.
32. In Jacques v. DiManfo, Inc., the court further ruled as follows:
“Since defendant’s counterclaim is patently devoid of allegations rising to a colorable claim for any of the tort theories
that defendant’s counsel has belatedly conjured in an attempt to avoid Rule 11 sanctions, such sanctions are clearly
warranted for this frivolous pleading. See W.K. Webster dr Co. v. Am. President Lanes, Ltd, 32 F.3d 665
(/opinion/676490/wkwebster-co-v-american-president-lines-ltd/),

670

(finding

sanctions

warranted

where

counterclaims were “patently void of any legal or factual basis” and defendant’s counsel did not “ma[ke] plausible
arguments” to support them)”.
33. In Jacques v. DiManfo, Inc., the court further ruled as follows:
“Although the ad damnum clause was amended from $500,000 to $50,000, the in terrorem effect of the initial half
million dollars lingered for about a year; indeed, Rule 11 sanctions have been imposed even when parties voluntarily
withdrew frivolous claims. See Fischer v. Samuel Montagu, Inc., 125 F.R.D. 391,394-95 (S.D.N.Y.1989); Shokai Far East
Ltd v. Energy Conservation Sys., Inc., 628 F. Supp. 1462 (/opinion/2595951/shokai-far-east-v-engery-conservation<
systems/), 1467(S.D.N.Y.1986)”.
34. In Jacques v. DiManfo, Inc., the court further ruled as follows:
“In addition, defendant’s counsel’s attempt to justify the counterclaim by arguing that it was warranted by plaintiff’s
“repeated actions before numerous administrative agencies” reinforces the frivolousness of the counterclaim. Def.’s
Mem. at 13. The two administrative claims hardly bespeak of “repeated actions.” To the contrary, they simply served
as predicates for the subject litigation. Notably, in respect to the ADA claim, defendant’s counsel should have known
the basic principle of law that as a precondition to initiating a federal discrimination lawsuit, plaintiff was required to
exhaust her administrative remedies, and that failure to do so would be fatal to her case. See Francis v. City ofNew York,
235 F.3d 763 (/opinion/771506/h-george-francis-plaintiff-appellee-cross-appellant-v-city-of-new-york/), 768 (2d
Cir. 2000) (“[E]xhaustion of administrative remedies through the EEOC stands as an essential element of Title VII’s
statutory scheme, and one with which defendants are entitled to insist that plaintiffs comply.”); see also Joseph v.
America Works, Inc., 2002 WL 1033833, at * 5 (S.D.N.Y. May 21, 2002) (claimant must exhaust administrative remedies
before bringing ADA claim in federal court). As for her state whistle blower claim, which may not require exhaustion,

App 025

10

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

plaintiff cannot be faulted for seeking relief before the NLRB as a means to avoid litigation; moreover, it is not at all
uncommon for a claimant to be unsuccessful at the administrative level and, as in the present case, to be successful
at the judicial level. That plaintiff was not successful in her administrative pursuits should not chill her right to come
to court for fear of being subjected to a retaliatory counterclaim”.
35. In Jacques v. DiMarcqo, Inc., the court further ruled as follows:
“In sum, given the plaintiff’s labile emotional condition and her initial pro se status, the factually unsupported,
conclusory lay nature of the counterclaim can only realistically be viewed, as suspected by the Court in its prior
decision, as a bad faith retaliatory in terrorem tactic against the plaintiff for bringing her claims to court. This conduct
constitutes “the type of abuse of the adversary system that Rule 11 was designed to guard against. ” Mareno v. Rom,
910 F.2d 1043 (/opinion/546219/antonio-mareno-jr-v-thomas-rowe-and-jet-aviation-of-america-inc/), 1047 (2d
Cir.1990). The Court reiterates its admonition to the practicing bar “against asserting baseless, retaliatory
counterclaims.” Jacques, 200 F.Supp.2d at 163”.
36. In Jacques v. DiMarpio, Inc., the court further ruled as follows:
“As for the sanction, the Court believes that $1,000 is sufficient to punish defendant’s counsel and to deter this type
of conduct in the future. See Salovaara v. Eckert, 222 F.3d 19 (/opinion/769831 /mikael-salovaara-individually-and-inhis-capacity-as-a-fiduciary-pursuant/), 34 (2d Cir.2000) (“Rule 11(c)(2) limits the sanctions that may be imposed for
a violation of Rule 11 'to what is sufficient to deter repetition of [the wrongful] conduct or comparable conduct by
others

similarly situated[.]’”); cf.

Gambello v.

Time Warner Communications, Inc.,

186 F.

Supp.

2d 209

(/opinion/2410959/gambello-v-time-warner-communications-inc/), 230 (E.D.N.Y.2002) (imposing $1,000 sanction
on attorney for presenting frivolous claim); Four Star Fin. Serv., EEC v. Commonwealth Mgmt. Assoc., 166 F. Supp. 2d
805 (/opinion/2421091/four-star-financial-v-commonwealth-management/), 810 (S.D.N.Y.2001) ($2,500 sanction
imposed on attorneys for fifing claims lacking “evidentiary support”)\Peny v. S.Z. Restaurant Corp., 45 F. Supp. 2d 272
(/opinion/2498479/perry-v-sz-restaurant-corp/), 276 (S.D.N.Y.1999) ($2,500 sanction imposed on attorney for
fifing frivolous claim); De Ponce v. Buxhaum, No. 90 Civ. 6344,1995 WL 92324, at * 2 (S.D.N.Y. March 7,1995) ($2,000
sanction imposed on attorney for answer to interrogatory “interposed for *145 [the] improper purpose” of “causing]
unnecessary delay or needless increase in the cost of litigation. ”) (internal quotation marks omitted).”
37. Based on the forgoing arguments, above mentioned case laws and in particularly based on Jacques v. DiMarJo, Inc., this
Court should enter Rule 11 sanctions and sanctions pursuant to this court’s inherent authority against School District
Defendants and their attorneys because the Plaintiff is exacdy situated like Audrey Jacques, the Plaintiff in Jacques v.
DiMarcJo, Inc., as described above in paragraph 35. The Plaintiff in the instant case is a legally disabled pro se litigant
with labile emotional condition who was declared permanently disabled by the Social Security Administration due to
the physician and mental injuries caused to him by the Defendants in Case # 20-cv-50133.
WHEREFORE, Plaintiff, Abdul Mohammed respectfully requests this court enter an order:
a)

Denying School District Defendants’ Motion;

App 026

11

DocuSign Envelope ID: 7B24A4A1-E3C1-42C9-A9AA-8937EB89C40A

b) For Sanctions against School District Defendants and their attorneys pursuant to Rule 11;
c) Enter default judgment against School District Defendants for fraud upon the court pursuant to the inherent
authority of this court in the instant case and Case # 19-cv-6525;
d) for any other relief, this court deems just and appropriate.
Dated-: 06/04/2020
Respectfully Submitted,
*----- DocuStgned by:

/OTOTohammed
Pro Se Plaintiff
258 East Bailey Rd, Apt C,
Naperville, IL 60565

App 027

12

DocuSign Envelope ID: FCE41049-301F-46F6-AEF8-EF214972C6A5

IN THE UNITED STATES DISTRICT COURT FOR NORTHERN DISTRICT OF ILLINOIS.
WESTERN DIVISION

ABDUL MOHAMMED,
PLAINTIFF
vs.
STATE OF ILLINOIS ET.AL
DEFENDANTS,

CASE # 20-CV-50133
JUDGE JOHN R. BLAKEY
MAGISTRATE JUDGE IAIN JOHNSTON

PLAINTIFF’S SUPPLEMENTAL RESPONSE TO SCHOOL DISTRICT DEFENDANTS’ MOTION TO
HAVE PLAINTIFF DECLARED A VEXATIOUS LITIGANT AND ENJOINED FROM FURTHER FILINGS

1.

This Supplemental Response should be considered as a continuation of Plaintiff’s Second Amended Response file
with Executive Committee on June 4, 2020 at 9:44 PM via email to Ms.Panter.

2.

In Goolsby v Gon%ale% Case # ll-cv-00494-LJO-GSA-PC, United States District Court for Eastern District of
California ruled as follows:
“The Court reiterates that the focus is on the number of suits that were frivolous or harassing in nature rather than
on the number of suits that were simply adversely decided. See De Long, 912 F.2d at 1147-48. Even under
California case law:
Any determination that a litigant is vexatious must comport with the intent and spirit of the
vexatious litigant statute. The purpose of which is to address the problem created by the persistent
and obsessive litigant who constantly has pending a number of groundless actions and whose
conduct causes serious financial results to the unfortunate objects of his or her attacks and places an
unreasonable burden on the courts.
Morton v. Wagner, 156 Cal.App.4th 963, 970-71 (Cal. App. 6 Dist. 2007). In Plaintiff s cases cited by Defendant
above, two were dismissed for failure to exhaust administrative remedies. Such cases do not demonstrate a
malicious or vexatious intent of the Plaintiff. Nor does losing an action at the summary judgment phase, voluntarily
dismissing an action, or having a habeas petition denied, demonstrate maliciousness or vexatiousness. Defendant
has failed to meet his burden in demonstrating that Plaintiff is a vexatious litigant. Since Defendant has failed to
make a threshold showing that Plaintiff has a pattern of engaging in harassing litigation practices, the Court declines
to address Defendant’s argument that Plaintiff is not likely to succeed on the merits. (Doc. 31-1 at 13)”.

3.

In the instant case the Plaintiffs cases cited by the Defendants were disposed or are pending as follows:
a)

Case # 16-cv-5263 (Filing Fee paid by the Plaintiff and voluntarily dismissed by the Plaintiff and this case does
not demonstrate a malicious or vexatious intent of the Plaintiff pursuant to Goolsby v Gon%ale%);

App 028

1

DocuSign Envelope ID: FCE41049-301F-46F6-AEF8-EF214972C6A5

b) Case # 16-cv-5264 (Filing Fee paid by the Plaintiff and voluntarily dismissed by the Plaintiff and this case does
not demonstrate a malicious or vexatious intent of the Plaintiff pursuant to Goolsby v Gon^ale^);

c) Case # 16-cv-2470 (Filing Fee paid by the Plaintiff and dismissed at the summary judgement phase and this case
does not demonstrate a malicious or vexatious intent of the Plaintiff pursuant to Goolsby v Gon%ale%);
d) Case # 17-cv-5585 ( Dismissed under the In Forma Pauperis Statute without prejudice because the Plaintiff was
not able to amend the complaint due to lack of legal representation and many of the claims from this case are
pending in Case # 20-cv-50133. Neither the Defendants were served in this case nor they filed appearance in
this case and this case does not demonstrate a malicious or vexatious intent of the Plaintiff pursuant to Goolsby v
Goti%ale%);
e)

Case # 16-cv-2538 (Filing Fee paid by the Plaintiff and voluntarily dismissed by the Plaintiff due to attorneys
withdrawal because of person reasons and this case does not demonstrate a malicious or vexatious intent of the
Plaintiff pursuant to Goolsby v Gon^ale^);

f)

Case # 18-cv-2638 (Dismissed under the In Forma Pauperis Statute. Neither the Defendants were served in this
case nor they filed appearance in this case and this case does not demonstrate a malicious or vexatious intent of
the Plaintiff pursuant to Goolsby v Gon%ale%)-,

g) Case # 18-cv-4248 (Dismissed under the In Forma Pauperis Statute. Neither the Defendants were served in this
case nor they filed appearance in this case and this case does not demonstrate a malicious or vexatious intent of
the Plaintiff pursuant to Goolsby v Gon%ale%. The Plaintiff was not able to appeal this case because the District
Court and the 7th Circuit denied Plaintiffs IFP Application. The reasoning for Judge Guzman for ruling this
case as frivolous is that the Plaintiff filed his ADA claims to assert subject matter jurisdiction in this court and
Judge Guzman’s reasoning cannot be any far from truth because the Plaintiff does not want to file any case is
the District Court because of the inconvenience of travelling from Naperville to Chicago for appearances and
the Plaintiff cannot be in District to appear at 9:00 AM because he drops his son to school in Naperville at 8:15
AM and he cannot reach the District Court for a 9:00 AM appearance as it takes at least 90 minutes to reach the
District Court in the morning rush hour. The Plaintiff has argued in his Motion to Remand in Case # 18-cv8393 that it is inconvenient for him to travel from Naperville to Chicago for appearances in District Court
because he drops his son to school in Naperville at 8:15 AM and it will be impossible for him to reach the
District Court for a 9:00 AM appearance because it takes at least 90 minutes to reach the District Court in the
morning rush. Further the Plaintiff has filed ADA claims in State Court and he has no reason to file a case in
District Court just to assert subject matter jurisdiction for his ADA claims in the District Court.);

h) Case # 17-cv-9371 (Voluntarily dismissed by the Plaintiff because this case was transferred to Federal Court in
California as part of Multi-District Litigation. Plaintiff dismissed this case because he lives in Illinois and he
cannot represent himself in this case in Federal Court in California and this case does not demonstrate a
malicious or vexatious intent of the Plaintiff pursuant to Goolsby v Gon%ale%);

App 029

2

DocuSign Envelope ID: FCE41049-301F-46F6-AEF8-EF214972C6A5

i)

Case # 18-cv-2503 (Dismissed as insufficiently pled and the Petition for Rehearing in pending in Supreme
Court of the United States and this case does not demonstrate a malicious or vexatious intent of the Plaintiff
pursuant to Goolsby v Gon^ale^);

j)

Case # 18-cv-8393 (This case was originally filed by the Plaintiff in DuPage County Circuit Court (Case # 18-L1312) and the Defendants removed the Case # 18-L-1312 from DuPage County Circuit Court over the
objection of the Plaintiff. In short the Plaintiff did not file the Case # 18-cv-8393 in this court and hence this
neither be Considered as filed by the Plaintiff in this court not does it demonstrate a malicious or vexatious
intent of the Plaintiff pursuant to Goolsby v Gon^ale^. The appeal for this case is pending in the 7th Circuit);

k) Case # 19-cv-6525 (This case was originally filed by the Plaintiff in Kane County Circuit Court (Case # 19-L419) and the Defendants removed the Case # 19-L-419 from Kane County Circuit Court. In short the Plaintiff
did not file the Case # 19-cv-6525 in this court and hence this neither be considered as filed by the Plaintiff in
this court not does it demonstrate a malicious or vexatious intent of the Plaintiff pursuant to Goolsby v Gon%ale%
This case is pending in this court in front of Judge Feinerman);
1)
4.

Case # 20-cv-50133 (This case was filed by the Plaintiff in this court and it is pending in front of Judge Blakey);

In short there is only one case which comes in the purview of the Executive Committee for the purpose of the
School District Defendants’ Motion and that case is the Case # 20-cv-50133 which is pending in front of Judge
Blakey.

5.

Since School District Defendants’ has failed to make a threshold showing that by filing one case against them in the
District Court (Case # 20-cv-50133) the Plaintiff has indulged in a pattern of engaging in harassing litigation
practices, this court should dismiss the School District Defendants’ Motion pursuant to Goolsby v Gon%ak%.
Dated-: 06/08/2020
Respectfully Submitted,
>■—*“DocuSignea by:

>----- FC402381B2A549F...

/ s/Abdul Mohammed
Pro Se Plaintiff
258 East Bailey Rd, Apt C,
Naperville, IL 60565

App 030

3

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
In the Matter of
Abdul Mohammed

)
)
)

Civil Action No. 20 C 3479

EXECUTIVE COMMITTEE ORDER
Since February 22, 2016, pro se litigant Abdul Mohammed has filed at least 14 cases in
the Northern District of Illinois. The cases have been terminated for reasons such as defendants’
motion for summary judgment, case stayed pending arbitration, plaintiffs motion to voluntarily
dismiss, failure to state a claim, lack of subject matter jurisdiction, and frivolous complaint,
It is the judgment of the Executive Committee* that reasonable and necessary restraints
must be imposed upon Mr. Mohammed’s ability to file new civil cases in this District pro se.
Cases in existence prior to the entry of this order are not affected by this order and shall proceed
as usual.
IT IS HEREBY ORDERED BY THE EXECUTIVE COMMITTEE in its capacity as the
supervisor of the assignment of cases, that----1)

Mr. Abdul Mohammed, or anyone, other than an attorney acting on his behalf, is
enjoined from filing any new civil action or proceeding in the United States District
Court for the Northern District of Illinois without first obtaining leave by way of the
following procedures:
a)

Any materials Mr. Mohammed, or anyone, other than an attorney acting on
his behalf, wishes to submit for filing shall be delivered to Room 2050,
Office of the Clerk at the Courthouse in Chicago. Only the Clerk or
deputies specifically designated by the Clerk may accept such documents.

b)

Where the document submitted is a complaint, it shall be accompanied by
a motion captioned “Motion Seeking Leave to File Pursuant to Order of
Executive Committee.” That motion shall, in addition to requesting leave
to file the complaint, include a sworn statement certifying that the claims
raised by or on behalf of Mr. Mohammed in the complaint are new claims
never before raised in any federal court.

c)

Whenever Mr. Mohammed submits a document for filing, the clerk or
designated deputy shall accept the papers, stamp them received, docket
them on Mr. Mohammed’s Executive Committee case number, and forward
them to the Executive Committee.

2)

The Executive Committee will examine any complaints submitted by or on behalf
of Mr. Mohammed to determine whether they should be filed.

3)

If Mr. Mohammed seeks leave to proceed in forma pauperis, the Committee will
also determine if such leave should be granted. The Committee will deny leave
to file any complaints if they are legally frivolous or are merely duplicative of
matters already litigated. The Committee may deny leave to file any complaints
not filed in conformity with this order.

4)

If the Executive Committee enters an order denying leave to file the materials, the
clerk shall retain the order on a miscellaneous docket with the title “In Re: Abdul

App 031

Mohammed” and cause a copy of the order to be mailed to Mr. Mohammed.
5)

If the Executive Committee enters an order granting leave to file the materials, the
clerk will cause the materials to be stamped filed as of the date received and shall
cause the case to be assigned to a judge in accordance with the rules. The clerk
shall also cause a copy of the order to be mailed to Mr. Mohammed.

6)

Mr. Mohammed’s failure to comply with this order may, within the discretion of the
Executive Committee, result in his being held in contempt of court and punished
accordingly.

7)

Nothing in this order shall be construed —
a)

to affect Mr. Mohammed’s ability to defend himself in any criminal action,

b)

to deny Mr. Mohammed access to the federal courts through the filing of a
petition for a writ of habeas corpus or other extraordinary writ, or

c)

to deny Mr. Mohammed access to the United States Court of Appeals or
the United States Supreme Court.

IT IS FURTHER ORDERED That any password issued to Abdul Mohammed for access
to the electronic filing system shall be disabled.
IT IS FURTHER ORDERED That any new complaints filed by Mr. Mohammed and
transferred to this Court from another jurisdiction shall be reviewed by the Executive Committee
to determine whether they should be filed.
IT IS FURTHER ORDERED That the Clerk shall cause to be created and maintained a
miscellaneous docket with the title “In Re: Abdul Mohammed” and case number 20 CV 3479.
The miscellaneous docket shall serve as the repository of this order and any order or minute order
entered pursuant to this order. All orders will be entered on the docket following standard
docketing procedures. A brief entry will be made on the docket indicating the receipt of any
materials from Mr. Mohammed.
IT IS FURTHER ORDERED That the Clerk shall cause a copy of this order to be mailed
to Mr. Mohammed at 258 East Bailey Rd., Apt. C, Naperville, Illinois 60565, the address given by
Mr. Mohammed in documents filed on May 29, 2020. Such mailing shall be by certified or
registered mail, return receipt requested.
ENTER:
FOR THE EXECUTIVE COMMITTEE

Dated at Chicago, Illinois this 17th day of June, 2020

•Judges before whom Mr. Mohammed has active cases have recused themselves in this matter.

2

App 032

:

All ^

u

p

usdc_ecf_ilnd@ilnd.uscourts.gov X

\/

*3 Reply

New message

o

4r

If] Delete

JzJ Archive

0 Junk

\/

13 Move to ^

m

Q Categorize

#

^ fl

V

Activity in Case 3:20-cv-50133 Mohammed v. The State of Illinois et al order on motion to

v Favorites

compel
$ Drafts

permits attorneys of record and parties in a case (including pro se litigants) to receive
one free electronic copy of all documents filed electronically, if receipt is required by
law or directed by the filer. PACER access fees apply to all other users. To avoid later

Add favorite

charges, download a copy of each document during this first viewing. However, if the
v Folders

Q Inbox

referenced document is a transcript, the free copy and 30 page limit do not apply.
United States District Court

4688

Northern District of Illinois - CM/ECF LIVE, Ver 6.3.2
3

0 Junk Email

Notice of Electronic Filing
$ Drafts
The following transaction was entered on 5/18/2020 at 1:55 PM CDT and filed on 5/18/2020
^ Sent Items
© Scheduled
Deleted Items

Case Name:

Mohammed v. The State of Illinois et al

Case Number:

3?0-rv-50133

Filer:
212

@ Archive

Document Number: 42
Docket Text:
MINUTE entry before the Honorable John Robert Blakey: Upon further review of the
docket in this case, the Court observes that Plaintiff neither paid the filing fee nor filed

□ Notes

an application for leave to proceed in forma pauperis (IFP). If Plaintiff wishes to
proceed with this case, he must do one or the other by 6/19/20. If Plaintiff neither pays

Conversation Flistory

the fee nor files an IFP application by that date, the Court will summarily dismiss this

n

amendments or routine motions. Once Plaintiffs fee status is resolved, the Court will

uber

screen his complaint (the initial complaint and most recent amended complaint) to
determine whether this case may proceed. See 28 U.S.C. § 1915A. Plaintiffs first,

New folder

second, third, and fourth amended complaints [6], [7], [15], [39],are stricken as they are
not permitted under Rule 15 and needlessly complicate this Court's initial review of

Groups

Plaintiffs allegations and potential claims. Plaintiffs motion to compel [37] also is
stricken as it is premature. Finally, the Court strikes its prior order [38]; Defendants

case. Until Plaintiff resolves his fee status, he should refrain from filing any further

>

need not respond to any pending motion or complaint at this time. Mailed notice(gel,)

3:20-cv-50133 Notice has been electronically mailed to:
Mary Alice Johnston

mjohnston@atg.state.il.us, genlawdocketing@atg.state.il.us,

grodriguez@atg.state.il.us
Frank Bennett Garrett

nepallarez@robbins-schwartz.com, fcfilings@robbins-schwartz.com,

fgarrett@robbins-schwartz.com
Emily Plomgren Bothfeld

phull@robbins-schwartz.com, ebothfeld@robbins-schwartz.com,

fcfilings@robbins-schwartz.com
EED
Abdul Mohammed

m

Zubair A Khan

aamohammed@hotmail.com

service@trivedikhan.com, zubair@trivedikhan.com

Stephen A. Kolodziej
Scott Joseph Kater
Jessica L. Watkins

msanchez@fordbritton.com, skolodziej@fordbritton.com
moca@dbmslaw.com, kater@dbmslaw.com, service@dbmslaw.com
courtfiling@hinshawlaw.com, jwatkins@hinshawlaw.com,

izielinski@hinshawlaw.com
Matthew R. Henderson
m h on H orcn n (Til h i n c

a\A/

cynthiablack@hinshawlaw.com, courtfiling@hinshawlaw.com,

Case: B»<DasM3fflB25

»FitetecDT)faX]M2®)fig»gd. hfaf PB@#Bmik4nm

UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois - CM/ECF LIVE, Ver 6.3.3
Western Division
Abdul Mohammed
Plaintiff,
Case No.: 3:20-cv-50133
Honorable John Robert Blakey

v.
The State of Illinois, et al.
Defendant.

NOTIFICATION OF DOCKET ENTRY

This docket entry was made by the Clerk on Friday, July 10, 2020:
MINUTE entry before the Honorable John Robert Blakey: Plaintiffs fifth
amended complaint [40], which clocks in at 1,125 pages (with an additional 2,852 pages
of exhibits), names more than 30 defendants, and asserts more than 63 counts (some with
numerous subparts and arguments), constitutes "an egregious violation of Rule 8(a)" and
is, accordingly, dismissed. Vicom, Inc. v. Harbridge Merchant Services, Inc., 20 F.3d 771,
775-76 (7th Cir. 1994). Additionally, in light of Plaintiff s prior filings and his willful
conduct in violating court orders, the record confirms that leave to replead will not
produce an improved sixth amended complaint (indeed, his most recent complaint is the
longest yet, and the Court still cannot detect a viable federal claim); and thus, the most
recent complaint is dismissed with prejudice, and this case is dismissed. See Vicom, 20
F.3d at 776 (noting that complaint should have been dismissed without leave to replead);
Davis v. Ruby Foods, Inc., 269 F.3d 818, 821 (7th Cir. 2001)(noting that dismissal of a
600-paragraph, 240-page complaint was appropriate under Rule 8); Crenshaw v.
Antokol, 206 F. App'x 560, 563 (7th Cir. 2006) (the dismissal of a complaint on die
ground that it is unintelligible and fails to give the defendant the notice to which it is
entitled is "unexceptionable"). All pending motions, including Plaintiff s motion to set a
briefing schedule [44], Plaintiffs motion for relief pursuant to the Rehabilitation Act [45],
and Plaintiffs motion to disqualify counsel [53], are denied. Civil case terminated. Mailed
notice(gel,)

ATTENTION: This notice is being sent pursuant to Rule 77(d) of the Federal Rules of
Civil Procedure or Rule 49(c) of the Federal Rules of Criminal Procedure. It was
generated by CM/ECF, the automated docketing system used to maintain the civil and
criminal dockets of this District. If a minute order or other document is enclosed, please
refer to it for additional information.
For scheduled events, motion practices, recent opinions and other information, visit our
web site at www.ilnd.uscourts.gov.
App 034

EXHIBIT 1

